                                                               NATIONAL SCIENCE FOUNDATION
                                                                OFFICE OF INSPECTOR GENERAL
                                                                  OFFICE OF INVESTIGATIONS

                                                        CLOSEOUT MEMORANDUM

11   Case Number: A07080046
                                                                                                    11   Page 1 of 1



                  A university' notified us that it had completed an inquiry and was initiating an investigation
          of an allegation that a professor2had plagiarized fiom his former graduate student and also a counter-
          allegation that the student3and two other faculty members4had plagiarized from the professor. The
          documents alleged to have contained the plagiarized material in both allegations cited NSF funding.
          We concurred with the need for investigation of both allegations and referred the investigations to
          the university. The university found that the professor and student had been named coauthors and
          that their respective contributions were not separable.

                  The university found no misconduct with respect to the graduate student and the two faculty
          members. The university found that the professor had committed plagiarism by using the majority of
          the coauthored text in a subsequent publication, omitting the student as a coauthor. The university
          imposed sanctions consisting of a letter of reprimand, training in the responsible conduct of research,
          senior faculty supervision of his mentorship of research students, and attestations to his department
          chair that his published work does not contain plagiarism.

                  We found the report accurate and complete and determined that the university followed
          reasonable procedures. The university's rationale appeared supported by the evidence and
          reasonable under its policies. Although the professor's actions raised serious concerns, the
          university's actions appear adequate and sufficient under the circumstances of the case to protect the
          interests of IVSF and the federal government. We have written the professor to express our concerns
          regarding questionable research practices, such as duplicate publication.5

                      Accordingly, this case is closed.




           I
           2
           3
           4
           5
               Duplicate publishing is the reuse of the same publication in two different places.



I'
 NSF 01G Form 2 (1 1/02)
